                            LATIONAL SCIENCE FOUNDATION
                                ARLINGTON, VA 22230




       O f f i c e of
I n s p e c t o r General



MEMORANDUM
       DATE :      Ju
       FROM :
                                                          -   - - -.
                                                                   --

        VIA:

 SUBJECT:          Allegation of Kickbacks at

          TO:      Case No. I93100044




We discussed the allegation with Dr.
program director for the gra
past, Dr. a  n   d others
overtures
                          received advice on the                    from NSF's
However, Dr.
or other
We attempted to contact the complainant, Ms.                       for further
information but were unsuccessful; the reference p                  office box
was fictitious. We then contacted a source on the                   campus for
information, with negative results.
As we found no evidence of to substantiate the allegation, we see
no need for further investigation at this time.
This case is closed.
